  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General


      Treatment of Immigration Detainees
      Housed at Immigration and Customs
            Enforcement Facilities




OIG-07-01                      December 2006
Table of Contents/Abbreviations
Executive Summary ............................................................................................................................. 1

Background .......................................................................................................................................... 2

Results of Audit ................................................................................................................................... 3

     Health Care .................................................................................................................................... 3
     Recommendations .......................................................................................................................... 6
     Management Comments and OIG Analysis .................................................................................. 6

     Environmental Health and Safety .................................................................................................. 8
     Recommendations ........................................................................................................................ 10
     Management Comments and OIG Analysis ................................................................................ 10

     General Conditions of Confinement ............................................................................................ 12
     Recommendations ........................................................................................................................ 25
     Management Comments and OIG Analysis ................................................................................ 26

     ICE Procedures For Reporting Detainee Abuse .......................................................................... 28
     Recommendations ........................................................................................................................ 32
     Management Comments and OIG Analysis ................................................................................ 33

     Thoroughness of ICE Detention Facility Inspections .................................................................. 36
     Recommendations ........................................................................................................................ 36
     Management Comments and OIG Analysis ................................................................................ 36


Appendices
    Appendix A:          Purpose, Scope, and Methodology .......................................................................                    38
    Appendix B:          OIG Flyer ..............................................................................................................   43
    Appendix C:          Management Response to Draft ............................................................................                  44
    Appendix D:          Major Contributors to this Report ........................................................................                 53
    Appendix E:          Report Distribution ...............................................................................................        54

Abbreviations
     ACA                   American Correctional Association
     BCP                   Berks County Prison
     CCA                   Corrections Corporation of America
     CDF                   Contract Detention Facility
     CO                    Correctional Officer
     CY                    Calendar Year
Table of Contents/Abbreviations
  DHS     U.S. Department of Homeland Security
  DIHS    Division of Immigration Health Services
  DMCP    Detention Management Control Program
  DOJ     Department of Justice
  DRO     Office of Detention and Removal Operations
  FODs    Field Office Directors
  HCCC    Hudson County Correctional Center
  ICE     U.S. Immigration and Customs Enforcement
  IGSA    Intergovernmental Service Agreement
  INS     Immigration and Naturalization Service
  NDS     National Detention Standards
  NGO     Non-Governmental Organization
  OIC     Officer-in-Charge
  OIG     Office of Inspector General
  OPR     Office of Professional Responsibility
  PCJ     Passaic County Jail
  SCO     Senior Correctional Officer
  SIEA    Supervisory Immigration Enforcement Agent
  SPC     Service Processing Center
  U.S.    United States
                                                                                         Audit
OIG                                                                                      Report
Department of Homeland Security
Office of Inspector General

Executive Summary
    This report presents the results of our audit of compliance with selected detention standards at five
    facilities used by U.S. Immigration and Customs Enforcement (ICE) to house immigration
    detainees:

      1.   Berks County Prison (BCP), Leesport, Pennsylvania
      2.   Corrections Corporation of America (CCA) Facility, San Diego, California
      3.   Hudson County Correction Center (HCCC), Kearny, New Jersey
      4.   Krome Service Processing Center (SPC), Miami, Florida
      5.   Passaic County Jail (PCJ), Paterson, New Jersey

    We focused on detention standards regarding: (1) Health Care, (2) Environmental Health and
    Safety, (3) General Conditions of Confinement, and (4) Reporting of Abuse. We did not use
    statistical sampling for our sample selections, and the results of our testing should not be projected
    to the detainee population or other facilities. Our report focuses on highlighting the specific areas
    of non-compliance identified during the course of our audit. (See Appendix A.)

    Our audit identified instances of non-compliance with ICE Detention Standards at the five
    facilities. Regarding health care standards, we identified instances of non-compliance at four of the
    five detention facilities, including timely initial and responsive medical care. Also, we identified
    environmental health and safety concerns at three of five detention facilities reviewed. We
    identified instances of non-compliance with ICE Detention Standards regarding general conditions
    of confinement at the five facilities, including disciplinary policy, classifying detainees, and
    housing together detainees classified at different security levels. Two facilities also had inadequate
    inventory controls over detainee funds and personal property.

    We further noted that the ICE Detention Standard on Detainee Grievance Procedures does not
    provide a process for detainees to report abuse or civil rights violations. In addition, two detention
    facilities did not issue handbooks specifically addressing detainee’s rights, responsibilities, and
    rules; and three facilities did not translate handbooks and orientation material into Spanish and
    other prevalent languages.

    During our audit, we brought these concerns to the attention of the Office of Detention and
    Removal Operations (DRO) management and responsible facility officials. ICE took immediate
    action to address many of our concerns. We made 13 recommendations addressing the areas of
    non-compliance identified. ICE partially or fully concurred with 9 of the 13 recommendations and
    the proposed actions to implement the 9 recommendations are adequate. Based on ICE’s actions
    and comments, we have deleted recommendation 12 as presented in the draft report.


                           Treatment of Immigration Detainees Housed at ICE Facilities

                                                     Page 1
Background
             The primary responsibilities of ICE’s DRO are to provide adequate and appropriate
             custody management of immigration detainees until a decision is rendered
             regarding their removal. In this regard, ICE operates eight detention facilities
             called Service Processing Centers (SPCs). ICE augments its SPCs with seven
             Contract Detention Facilities (CDFs). Contractors operate CDFs, which house only
             detained immigrants. In addition, ICE uses state and local jails on a reimbursable
             basis through Intergovernmental Service Agreements (IGSAs) and uses, at times,
             joint Federal facilities with the Bureau of Prisons. Our audit included detention
             facilities in each of the three categories: SPC (Krome), CDF (CCA San Diego),
             and IGSA (Berks County Prison, Hudson County Correction Center, and Passaic
             County Jail).

             Under the Detention Management Control Program (DMCP), ICE personnel
             prescribe policies, standards, and procedures for ICE detention operations and
             review detainee facilities to ensure they are operated in a safe, secure, and humane
             condition for both detainees and staff. According to the DMCP, each SPC was to
             be reviewed beginning in Calendar Year (CY) 2002. In April 2002, all CDFs were
             required to fall under the provisions of the DMCP, and IGSA facilities were fully
             included beginning in fiscal year 2003. Due to the need to modify contractual
             agreements with CDFs and IGSA facilities, these types of facilities were not
             required at that time to meet all procedures and guidance outlined in the DMCP.
             However, they are required to meet the intent of the published detention standards.
             Also, IGSA facilities may adopt, adapt, or establish alternatives to the procedures
             specified for SPCs and CDFs, provided they meet the objective represented by each
             standard. ICE DRO conducts annual inspections for each detention facility used.

             In November 2000, the former Immigration and Naturalization Service (INS)
             established detention standards to ensure the “safe, secure, and humane treatment
             of individuals detained by INS.” The 36 detention standards contained in the
             Detention Operations Manual covered a broad spectrum of issues ranging from
             visitation policies to grievance procedures and food service. These detention
             standards applied to SPCs then operated by INS and CDFs. The majority of these
             detention standards were implemented on September 20, 2000. They established
             the minimal requirements that must be adhered to at all facilities, affording
             immigration detainees rights and protections specified. Two additional standards
             were issued subsequent to September 2000: (1) the detention standard regarding
             staff-detainee communication was issued in July 2003, and (2) the detention
             standard regarding detainee transfer was approved in September 2004. The
             National Detention Standards are the result of negotiations between the American
             Bar Association, the Department of Justice (DOJ), the (legacy) INS and other
             organizations involved in pro bono representation and advocacy for immigration
             detainees.


                   Treatment of Immigration Detainees Housed at ICE Facilities

                                             Page 2
Results of Audit

  Health Care
                The health care programs and medical facilities at SPCs (Krome) and CDFs
                (Corrections Corporation of America, San Diego) are managed and administered
                under the direction of the Division of Immigration Health Services (DIHS). The
                DIHS is located within the Bureau of Primary Health Care of the Public Health
                Service, under the Department of Health and Human Services. Health care
                contractors administer medical services at IGSA facilities (Berks County Prison,
                Hudson County Correctional Center, and Passaic County Jail).

                ICE established Detention Standards for Medical Care, Hunger Strikes, and Suicide
                Prevention and Intervention. We assessed the detention facilities for adherence to
                health care standards in the following four areas:

                   •   Initial medical screening and physical examination.
                   •   Sick call requests and medical treatment.
                   •   Hunger strike initial evaluation and monitoring.
                   •   Suicide watch monitoring.

                Initial Medical Screenings and Physical Examinations

                The ICE Detention Standard for Medical Care requires all new arrivals to receive
                initial medical and mental health screening, including tuberculosis screening,
                immediately upon arrival by a health care provider or an officer trained to perform
                this function. The health care provider must also conduct a health appraisal and
                physical examination on each detainee within 14 days of arrival.

                We reviewed 101 of 115 requested medical files for compliance with initial
                medical screening at 4 of the facilities. Eight detainees did not receive the required
                initial medical screening, and 14 files did not contain sufficient documentation to
                make a determination. Also, we reviewed 111 of 122 requested medical files for
                compliance with the physical examination requirement, 15 detainees did not
                receive the required examination, and 11 files contained insufficient documentation
                to make a determination. Krome complied with the standard for initial medical
                screening and physical examination. The results are summarized in Table 1.




                       Treatment of Immigration Detainees Housed at ICE Facilities

                                                 Page 3
                                               Table 1
         Non-compliance With Initial Medical Screening and Physical Examination Standards
    Health Care       Berks County        CCA San Diego            HCCC            Passaic County
      Standard            Prison               Facility                                  Jail
Initial Medical     4 of 42 detainees    0 of 10 detainees  4 of 20 detainees    0 of 29 detainees
Screening Upon      non-compliant.      non-compliant,      non-compliant.       non-compliant, 1
Arrival                                 documentation       Files for 11         additional
                                        missing for 2       additional detainees detainee’s file
                                        additional          missing              lacked
                                        detainees.          documentation.       documentation.
Physical Exam         4 of 42 detainees     11 of 19 detainees   0 of 20 detainees    0 of 30 detainees
Within 14 Days        non-compliant.        non-compliant.       non-compliant.       non-compliant.
                                                                 Files for 11
                                                                 additional detainees
                                                                 missing
                                                                 documentation.


Response to Sick Call Requests

The ICE Detention Standard for Medical Care requires each facility to have a
mechanism that allows detainees the opportunity to request health care services
provided by a physician or other qualified medical officer in a clinical setting. Each
facility will have regular scheduled times, known as sick call, when medical
personnel will be available to see detainees who have requested medical services.
Sick call will be regularly scheduled according to the following minimum
standards:

    •    Facilities with fewer than 50 detainees - minimum of 1 day per week
    •    Facilities with 50 to 200 detainees - minimum of 3 days per week
    •    Facilities with over 200 detainees - minimum of 5 days per week

The ICE standards regarding medical response to sick calls do not clearly define
what should be considered a timely response to non-emergency sick call requests.
In the absence of such standards, local detention facility health services have
established differing policies regarding response to non-emergency health care
treatment, listed in Table 2.

At three of five detention facilities we visited, 196 of 481 immigration detainee
non-emergency medical requests were not responded to in the timeframe allowed
by the facility. Table 2 summarizes our findings at BCP, CCA, and PCJ.

                                               Table 2
                       Non-compliance With Non –Emergency Sick Call Policy
   Facility Health Care    Berks County Prison CCA San Diego Facility      Passaic County Jail
            Policy
 Hours allowed to respond 48 Hours (72 Hours on            72 Hours         24 Hours (Monday
 to sick call requests        the Weekend)                                   through Friday)
 Non -Compliance            179 of 447 requests        10 of 19 requests     7 of 15 requests
                              non-compliant.            non-compliant.        non-compliant.



        Treatment of Immigration Detainees Housed at ICE Facilities

                                   Page 4
Hunger Strikes

The ICE Detention Standard on Hunger Strikes requires all facilities to follow
accepted standards of care in the medical and administrative management of
hunger-striking detainees. Among the standards are two key provisions:

 •    Staff will consider any detainee refusing food for 72 hours to be on a hunger
      strike, and will refer him/her to the medical department for evaluation and
      possible treatment.
 •    Medical staff will take and record weight and vital signs at least once every
      24 hours during the hunger strike. Other procedures will be repeated as
      medically indicated.

We identified and assessed the treatment of eight detainees on hunger strikes at the
five facilities. Krome complied with the standard for the one detainee on hunger
strike included in our review. At the four other facilities, the medical staff did not
record weight for three detainees on hunger strike. In addition, the four facilities
did not monitor vital signs for five of these detainees at least once every 24 hours,
as required. Table 3 summarizes the instances of non-compliance with the hunger
strike standard.

                                           Table 3
                         Non-compliance With Hunger Strike Standard
   Health Care      Berks County      CCA San Diego          HCCC          Passaic County
    Standard            Prison            Facility                               Jail
 Hunger Striker     1 of 1 detainee   0 of 3 detainees    Medical staff    2 of 2 detainees
 Weight Taken       non-compliant.    non-compliant.       noted that       non-compliant.
 During Initial                                           detainee was
 Evaluation                                              uncooperative.
                                                         Hence, did not
                                                         record weight.
 Hunger Striker     1 of 1 detainee   1 of 3 detainees   1 of 1 detainee   2 of 2 detainees
 Weight and Vital   non-compliant.    non-compliant.     non-compliant.    non-compliant.
 Signs Monitored
 Every 24 Hours


Detainees on Suicide Watch

The ICE Detention Standard on Suicide Prevention and Intervention requires
observation of imminently suicidal detainees by medical or detention staff to occur
no less than every 15 minutes. We reviewed the medical records for 36 detainees
on suicide watch: BCP-7, HCCC-7, CCA-5, PCJ-3, and Krome-14. At BCP, CCA
San Diego, and HCCC, facility personnel did not record the required 15-minute
security checks for five detainees, as shown in Table 4.




       Treatment of Immigration Detainees Housed at ICE Facilities

                                 Page 5
                                               Table 4
                   Suicide Prevention and Intervention Missing Documentation
 Health Care Standard Berks County Prison              CCA San Diego           HCCC
                                                           Facility
 Suicide Watches /            2 of 7 detainees         1 of 5 detainees    2 of 7 detainees
 Precautions – Monitored
 Every 15 Minutes


Recommendations

We recommend that the Assistant Secretary for ICE, in consultation with the
Division of Immigration Health Services:

1. Establish quality assurance measures to ensure the medical staff at detention
   facilities consistently follow all detention standards regarding

    •    initial medical screening and subsequent physical examinations for new
         arrivals,
    •    timeliness of responding to non-emergency sick call requests,
    •    monitor detainees on hunger strikes, and
    •    monitor detainees identified as a suicide risk.

Management Comments: ICE concurs in part. ICE will convene a working group
comprised of licensed medical practitioners from the U.S. Public Health Service
DIHS. This working group will review current inspection worksheets for the
purpose of determining whether any specific changes to the worksheets are
required to guarantee an appropriate level of quality assurance in compliance with
the National Detention Standards (NDS) requirements concerning medical
screening, hunger strikes, and suicide prevention. This working group will
complete its assessment within 90 days and any recommendations will be
incorporated into the annual ICE detention review program, including the issuance
of any appropriate policy changes. ICE did not agree with our findings since they
were based on a small sample size and an “exception report” methodology, and did
not reflect a systemic shortcoming in ICE’s detention practices. ICE also noted
that it is critical that medical providers maintain the ability to prioritize care and
treatment in order to ensure those requiring immediate medical treatment are seen
first. ICE noted that the OIG did not report that any of the responses were
medically inappropriate.

OIG Analysis: Initial medical screening is important to identify immediate
medical, emotional, and dental needs of the detainees. These concerns could
include but are not limited to communicable or infectious diseases, nutritional
status, indications of previous injuries or scars, physical handicap conditions, or
special needs. ICE’s comments recognize our general conclusion that the current
inspection worksheets should guarantee an appropriate level of quality assurance in
compliance with the NDS to achieving the requirements, and ICE will form a

        Treatment of Immigration Detainees Housed at ICE Facilities

                                  Page 6
working group to determine whether any changes are required. ICE’s proposed
actions address the intent of the recommendation. This recommendation is
resolved but will remain open until the assessment performed by the working group
and appropriate measures have been completed.

2. Develop specific criteria to define reasonable time for medical treatment.

Management Comments: ICE concurs in part. ICE contends that its medical
program provides adequate detainee care and is consistent with industry standards
but will nonetheless examine the merits of the issue raised in this report. As noted
above, a working group of licensed medical experts will review the medical
standards to determine if changes need to be made.

OIG Analysis: ICE will form a working group to determine if changes need to be
made. ICE’s proposed actions address the intent of the recommendation. This
recommendation is resolved but will remain open until the assessment performed
by the working group and appropriate measures have been completed.

3. Establish measures to ensure medical records are clearly documented and the
   documentation is readily available for examination.

Management Comments: ICE concurs in part. As noted in response to the prior
two recommendations, ICE will examine the merits of the issue. The working
group will conduct an assessment to determine if changes are needed.

OIG Analysis: ICE will form a working group to determine if changes need to be
made. ICE’s proposed actions address the intent of the recommendation. This
recommendation is resolved but will remain open until the assessment performed
by the working group and appropriate measures have been completed.




      Treatment of Immigration Detainees Housed at ICE Facilities

                                Page 7
    Environmental Health and Safety
                          ICE Detention Standard on Environmental Health and Safety requires
                          environmental health conditions to be maintained at a level that meets
                          recognized standards of hygiene. 1 It requires the ICE Health Service
                          Administrator or IGSA equivalent to conduct activities that are designed to
                          assist in the identification and correction of conditions that could adversely
                          impact the health of detainees, employees, and visitors. The ICE sanitarian
                          consultant is responsible for developing and implementing policies,
                          procedures, and guidelines pertaining to activities of the environmental health
                          program.

                          During our audit, we received complaints from detainees regarding
                          environmental health and safety issues. Detainees interviewed made 11 safety
                          and 127 health complaints. Safety-related complaints involved excessively
                          hot water and unsafe bunk beds; health-related complaints included pests and
                          vermin, poor ventilation, and improperly prepared or served food.

                          Safety Complaints

                          Two safety complaints were brought to our attention during interviews with
                          detainees. We were able to validate these safety concerns involving
                          excessively hot water, which was immediately remedied, and unsafe bunk
                          beds, which remain unresolved.

                          Excessively Hot Water. At PCJ, 2 of 6 female detainees interviewed
                          complained that when toilets, showers, and sinks were in use at the same time,
                          water temperature in the shower became excessively hot. We confirmed this
                          unsafe condition in the female housing units during our review. On
                          October 28, 2005, we told PCJ officials of the problem. PCJ officials took
                          immediate actions to identify the cause of the problem, and on November 4,
                          2005, a mixing valve was replaced which corrected the problem.

                          Unsafe Bunk Beds. At BCP and PCJ, 5 of 25 and 4 of 32 detainees
                          interviewed reported being injured from falling out of top bunks and while
                          trying to get onto and off the top bunk, respectively. Our review of medical
                          documentation at BCP and PCJ confirmed that detainees had fallen out of the
                          top bunk and received medical treatment. BCP and PCJ did not have safety
                          ladders to access the top bunk and a top bunk safety rail to prevent detainees
                          from falling out of bed. We did observe, however, that ladder access and a
1
 Recognized standards of hygiene include requirements accepted by the American Correctional Association, the
Occupational Safety and Health Administration, the Environmental Protection Agency, the Food and Drug
Administration, the National Fire Protection Association's Life Safety Code, and the National Center for Disease Control
and Prevention.


                              Treatment of Immigration Detainees Housed at ICE Facilities

                                                         Page 8
safety rail on the top bunk were in place on bunk beds in PCJ’s medical unit,
as well as on triple-deck bunk beds in PCJ’s men’s housing units. During our
exit meeting, BCP officials told us that they would look into getting ladders
for top bunk beds.

We confirmed two complaints regarding bottom bunk bed assignment. At
BCP, a detainee with a back problem that required medical treatment stated
that he was denied a request for a lower bed bunk for over four weeks.
According to medical records, he was denied a lower bunk because he had not
mentioned his back pain during his initial physical when he first arrived at the
facility. In another case at PCJ, a delay of one week occurred in assigning a
bottom bunk to a detainee who was prescribed medication that caused vertigo,
a form of dizziness often associated with a balance disorder. The detainee
requested a bottom bunk due to concerns of falling.

Health Related Complaints

Three types of health complaints were received during our site visits,
including complaints regarding pests and vermin, poor ventilation, and
improperly prepared or served food.

Pests and Vermin. Detainees at both BCP and PCJ complained of pest
control problems. The ICE Environmental Health and Safety Detention
Standard require the Officer-in-Charge to contract with licensed pest-control
professionals to perform monthly inspections. During these routine
inspections, they will identify and eradicate rodents, insects, and vermin. The
contract will include a preventative spraying program for indigenous insects.
IGSAs are required to meet the intent of this standard.

BCP contracted with a professional commercial pest maintenance service to
provide on-going pest inspections and treatments. Our review of BCP
documentation suggested that BCP was aware of, and took action to address
pest control issues. However, we could not determine whether treatment
occurred in the areas housing detainees.

According to PCJ’s extermination schedule, the facility should be inspected or
treated 12 times per month. For September and October 2005, 9 of 24
scheduled pest control service reports were available for our review; eight of
the nine reports indicated evidence of rats/mice and cockroaches at PCJ.
Also, because of incomplete documentation, we were unable to determine
whether treatment by a pest control technician was made at PCJ between
January 2004 through October 2005 for 17 special service requests for
additional pest control treatments.



   Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 9
Ventilation. We received complaints at BCP, CCA, HCCC, and PCJ
regarding poor ventilation problems. We observed obstructed air vents in the
male units at PCJ, and several large industrial fans in front of male detainee
units that were unplugged and had a substantial amount of dust build-up.
Although these conditions indicated ventilation problems could exist, we
could not confirm the complaints.

Food Service. Detainees at HCCC and PCJ surfaced complaints regarding
food service. Detainees complained about dirty food trays, which we did
confirm by observation at both locations. However, we could not determine
whether this was widespread or the frequency of occurrence. Also, at PCJ,
complaints were lodged regarding “hot” food that was served cold. We
observed detainees being served “hot” food that was cold, but we could not
determine whether the problem was widespread or the frequency of
occurrence.

At PCJ, complaints were made regarding undercooked poultry. We identified
two instances where undercooked poultry was served to PCJ detainees. In the
first instance, on October 14, 2005, a detainee gave us a piece of undercooked
poultry served on the previous day. When presented with the undercooked
piece of poultry, both PCJ officials and PCJ food service contractor agreed it
was undercooked. PCJ officials took corrective measures within three days,
which included a new checklist with supplemental procedures to ensure food
was properly cooked and an incident report and memorandum to all parties
involved was issued.

In the second instance, on October 28, 2005, a PCJ detainee gave us a
grievance form, signed by 57 male detainees, stating that 10 people got sick
from eating chicken. We reviewed the completed checklist for that day,
which indicated that the oven temperature used to cook the poultry was not
according to the new checklist procedures.

Recommendations

We recommend that the Assistant Secretary for ICE:

4. Require detention facilities using double or triple bunk beds to include
   ladder access and a top bunk safety rail to ensure the safety of the
   detainees.

Management Comments: ICE does not concur. The NDS and American
Correctional Association (ACA) standards do not require ladders and safety
rails for bunk beds. ICE believes that this requirement would be extremely
expensive and will significantly reduce the amount of available bedspace


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 10
(particularly in areas of the country where IGSA bedspace is heavily relied
upon), and could conceivably make it more difficult for detention officers to
remove uncooperative detainees. ICE recommended that this
recommendation be closed.

OIG Analysis: We acknowledge that the ACA does not require the use of
access ladders and safety rails for bunk beds. However, because we identified
several instances where detainees were injured either accessing or falling off
the top bunk, ICE should thoroughly evaluate the costs and benefits of
implementing this recommendation and provide the analysis for our review.
This recommendation is considered unresolved until ICE conducts this
evaluation.

5. Ensure that periodic oversight and inspection procedures are in place to
   determine that regular pest treatments are performed, ventilation is
   adequate, and food preparation and serving procedures are followed
   during their annual inspections.

Management Comments: ICE concurs in part. ICE’s current inspection
program already requires annual checks to ensure pest control services and
appropriate food preparation at each facility. However, ICE will modify its
Health and Safety inspections worksheet utilized during its annual inspections
by adding a specific line item requiring detention reviewers to check each
facility for adequate ventilation and will make improvements to its current
inspectional tools and methodology to monitor adherence to health related
requirements. Once completed and approved, these changes will be
incorporated into the annual detention review program and appropriate policy
will be issued. ICE estimates that these changes will take 90 days to
implement.

OIG Analysis: ICE’s proposed actions address the intent of the
recommendation. This recommendation is resolved but will remain open until
the appropriate measures have been implemented.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 11
General Conditions of Confinement
            Staff-Detainee Communication

            The ICE Detention Standard on Staff-Detainee Communication requires
            procedures to be in place to allow for formal and informal contact between
            key facility staff and ICE staff and ICE detainees and to permit detainees to
            make written requests to ICE staff and receive an answer in an acceptable
            time frame. Table 5 summarizes the areas of non-compliance at four
            facilities.

                                                                 Table 5
                                        Non-compliance With Staff-Detainee Communication Standard
                 Staff-Detainee                 Berks County     CCA San Diego         HCCC         Passaic County
             Communication Standard                Prison          Facility                              Jail
             Logbooks not kept by ICE                 X                                                   X
             DRO Field Office
             Logbooks Incomplete                                           X              X

             ICE visits not posted in                 X                                                   X
             housing units
             No Documentation for visits              X                                                   X



            Documentation of ICE Visits to Facilities. The ICE standard requires a
            schedule of announced visits by ICE personnel to be posted in detainee living
            quarters, and to document these visits. ICE officials must also conduct and
            document weekly unannounced visits.

            Beginning in May 2005, logbooks were being kept by ICE Detention officers
            to record their visits to PCJ. In addition, ICE Deportation and Detention
            officers were instructed by the Field Office Director to perform only
            unannounced visits at PCJ. However, beginning in July 2005, both announced
            and unannounced visits were being conducted and schedules for announced
            visits were posted in housing units. Also, ICE DRO Newark Field Office
            detention officer logbook entries for HCCC made before September 2005 did
            not indicate whether the detention officer resolved detainee concerns or
            whether actions were taken in a timely manner.

            Documentation of Detainees’ Written Requests. We sampled 39 detainee
            request forms between January 1, 2005, and December 31, 2005, from files in
            PCJ’s Ombudsman’s office. ICE deportation officials could not substantiate
            that they responded to and answered 38 of 39 detainee request forms within
            72 hours as required by the ICE Standard.




                Treatment of Immigration Detainees Housed at ICE Facilities

                                                  Page 12
                          Detention Files

                          The ICE Detention Standard on Detention Files states that the creation of a
                          detainee file is essential to maintaining a complete record of a detainee’s time
                          in facility custody. The file will contain the classification level and any copies
                          of receipts for items issued to/surrendered by the detainee. It will also
                          document adverse behavior, special requests, complaints, and other
                          information considered appropriate for the facility officials.

                          Detention files were missing and documentation in some of the files were
                          incomplete at four facilities, as summarized in Table 6.

                                                                      Table 6
                                                         Missing Files and Documentation
                                     Category              Krome SPC         BCP            HCCC            PCJ
                           Files Requested                     15             28              9              20
                           Missing Files                        4              2              1               3
                           Files Missing Documentation         72              5              8              17


                          Missing and incomplete information included:

                              Property receipts for clothes and valuables (HCCC);
                              Classification sheets (HCCC, PCJ);
                              Inmate processing forms (HCCC);
                              Transfer in or out forms (HCCC);
                              I-203 forms (form documents decision to detain or release an alien)
                              (HCCC);
                              Charges and/or violations (HCCC);
                              Grievances (BCP, Krome);
                              Incident reports (Krome);
                              Handbook receipts (PCJ); and
                              Identifying marks forms (PCJ)

                          Reasons for missing files included:

                              Poor recordkeeping (HCCC);
                              Archived files not dated and organized as required by ICE Standards
                              (Krome, PCJ); and
                              Decentralized filing system (BCP, HCCC, PCJ).



2
  Krome’s OIC agreed that detention files should contain grievances and incident reports. The OIC said the office would
review the processes now in place and make changes where necessary to ensure that these reports are filed in detention
files.


                              Treatment of Immigration Detainees Housed at ICE Facilities

                                                         Page 13
Disciplinary Policy

Our interviews surfaced complaints regarding the lockdown policy at BCP
and reporting of incidents at HCCC and PCJ.

Lockdown Procedures. The ICE Detention Standard on Disciplinary Policy
requires each facility holding ICE detainees in custody to have a detainee
disciplinary system. The disciplinary system must include progressive levels
of reviews such as a disciplinary committee, appeal, and documentation
procedures.

According to the BCP detainee handbook, effective May 2002, non-severe
actions could include counseling, a written warning or reprimand, loss of
privileges up to four days, or confinement to cell up to 24 hours for violation
of a rule. Of the 146 unit actions we reviewed, 120 imposed 24-hour lock
downs. The violations associated with these lock downs included actions such
as wearing a religious head garment.

According to the HCCC detainee handbook, issued June 2005, under Detainee
Discipline, the time the detainee is to remain in pre-hearing segregation will
be no longer than is necessary to verify the detainee’s safety or the security of
the facility. The detainee’s pre-hearing detention status will be reviewed by
the warden/Facility Administrator or designee within 72 hours of placement
including weekends and holidays. We reviewed the files for two HCCC
detainees that had been placed in disciplinary segregation for allegedly
fighting, and not given their disciplinary hearing until 48 hours past their
72-hour requirement. HCCC officials said the hearing was delayed because
HCCC could not form a committee to conduct the hearings. Both detainees
were found not guilty, after serving five days in disciplinary segregation.

Incident Reporting. The ICE Detention Standard on Disciplinary Policy
requires officers who witness a prohibited act or have reason to suspect one
has been committed to prepare and submit an incident report. All incident
reports must state the facts clearly, precisely, and concisely, omitting no
details that could prove significant. Reports also will identify the officer(s),
the detainee(s), and all witnesses to the incident. Additionally, IGSAs must
have procedures in place to ensure that all incident reports are investigated
within 24 hours of the incident.

In the case of the two HCCC detainees previously mentioned that were placed
in disciplinary segregation allegedly for fighting, the incident report did not
identify the witness, did not state that the officer observed the fight, and the
dates were omitted. A HCCC official agreed that this report did not follow
ICE Detention Standards on Disciplinary Policy.


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 14
At PCJ, between January 2005 and July 2005, three disciplinary actions were
taken and no incident report was prepared. When we brought this matter to
the attention of PCJ officials, they provided us with one of the incident reports
three months after it occurred.

Hold Rooms

The ICE Detention Standard on Hold Rooms for unprocessed detainees states
that the maximum aggregate time an individual may be held in a hold room is
12 hours. According to the Krome Hold Room logbooks for the period
November 2, 2003, through April 10, 2004, 40 detainees were held from 13 to
20 hours.

We brought this issue to the attention of the Supervisory Immigration
Enforcement Agent (SIEA), who acknowledged that sometimes detainees
were held longer than the 12-hour policy. The SIEA explained that a detainee
may be held longer than 12 hours because: (1) there might not be enough
processing officers stationed at the in-processing duty station to handle a large
group of newly admitted detainees; (2) when a woman is admitted into
Krome, all other duties stop to admit the woman; and (3) the Officer in
Charge (OIC) might order a priority task to be completed and all other duties
are postponed. The SIEA advised that the new processing center would allow
for the cross training of personnel so that when there is an overload of
detainees to be processed, it can be done more timely.

Also, hold rooms at Krome were not compliant with the Detention Standard
criteria. Specifically, the benches inside the hold rooms do not provide
adequate seating to accommodate the number of detainees being held; the
light switches are located within the hold rooms; and there are no floor drains.
ICE staff told us that they were aware of these non-compliance items and that
they had been noted on a prior review, conducted by ICE in February 2004
and documented in ICE’s Detention Management Control Programs annual
report. These items were considered structural deficiencies, which will be
corrected when Krome’s new processing center is operational.

Special Management Units (Disciplinary and Administrative)

Establishment of Special Management Unit. The ICE Detention Standards
for Special Management Unit (Disciplinary and Administrative Segregation)
requires each facility to establish a Special Management Unit that will isolate
certain detainees from the general population. The Special Management Unit
will have two sections, one for detainees in segregation for administrative
reasons and the other for disciplinary reasons. A detainee may be placed in


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 15
disciplinary segregation only by order of the Institutional Disciplinary
Committee, after a hearing in which the detainee has been found to have
committed a prohibited act. Administrative segregation is a non-punitive
form of segregation used to remove detainees from the general population
when separation is necessary.

On July 14, 2005, two detainees at HCCC were allegedly fighting. Both
detainees were placed in disciplinary segregation before the hearing was held
and a ruling by the Institutional Disciplinary Committee. These detainees
were subsequently found not guilty.

Similarly, during our review at PCJ, we determined that, in six instances,
detainees were placed in disciplinary segregation before the hearing was held
and a ruling rendered by the Institutional Disciplinary Committee. These
detainees’ charges ranged from verbal altercations with correctional officers
to physical altercations with other detainees. The detainees were subsequently
found not guilty.

Detainee’s Access to Legal Materials

Availability of Materials. The ICE Detention Standard for Access to Legal
Material requires facilities holding ICE detainees to permit detainees access to
a law library, and provide legal materials, facilities, equipment and document
copying privileges, and the opportunity to prepare legal documents. Further,
the standard requires the facility to designate an employee with the
responsibility for updating legal materials, inspecting them weekly,
maintaining them in good condition, and replacing them promptly, as needed.

Detainees housed at HCCC did not have access to Lexis Nexis legal
information software, until ICE installed two computers with the Lexis Nexis
legal software in January 2005. According to HCCC officials, they posted an
announcement in the detainee units in July 2005 notifying them of the
availability of the Lexis Nexis computer software.

At BCP, Lexis Nexis legal information software was not available to detainees
for the entire month of March 2005. BCP officials said they were not aware
that the software license had expired. Once notified, ICE renewed the
software license in April 2005.

At PCJ, detainees did not have access to legal materials for the month of
November 2005 because the license for the material had expired. PCJ
officials notified ICE of the expired license and ICE provided them with an
updated version of Immigration Case Law library on disks. However, PCJ



   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 16
officials could not locate the disks. ICE provided them with another copy on
November 30, 2005, and the legal material was restored on December 1, 2005.

Time Allotted In Library. The ICE Detention Standard for Access to Legal
Material requires each detainee to be permitted to use the law library for a
minimum of five (5) hours per week. The HCCC law library schedule
indicated that detainees are allowed only one and half hours on Tuesday or
Wednesday. PCJ did not have enough space to accommodate the detainee
population requesting library use, so officials allowed four hours per week per
detainee. However, detainees were allowed to submit a special request to
increase their access to the library for more than four hours.

Detainee Classification

The ICE Detention Standard on Detainee Classification System requires that
all detainees be classified upon arrival in the facility, before they are admitted
into the general population. All facilities are required to ensure that detainees
are housed separately according to three classification levels. Level three
detainees, for example, are considered a high-risk and require medium to
maximum security housing. The standard also requires the facilities to
establish procedures by which new arrivals can appeal their classification
levels and the detainee handbook’s section on classification should include
(1) an explanation of the classification levels, with the conditions and
restrictions applicable to each; and (2) the procedures by which a detainee
may appeal his/her classification. The standard does not include procedures to
inform the detainee of his/her classification.

During our interviews of 51 detainees at the CCA San Diego, 24 detainees did
not know their classification level. Similarly, at BCP none of the 25
detainees, at HCCC, 39 of 40 detainees, and at PCJ, 25 of 32 detainees knew
their classification.

Classification of Detainees. At PCJ, male detainees were not classified
according to ICE Standards prior to June 2005 and females were not classified
because PCJ did not have enough room to segregate them. Of the 159 records
of male detainees that we reviewed as of October 20, 2005, 22 were not
classified and 23 were not properly segregated.

According to PCJ management, the facility was not informed that they had to
classify male detainees until June 2005. In addition, the facility did not
classify detainees because they believed it would alleviate the facility from
potential lawsuits by detainees and advocacy groups.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 17
Housing Detainees of Different Classifications

ICE Detention Standards for classification prohibits level one detainees from
being housed with level three detainees. The ICE Detention Standard allows
high-level two detainees to be housed with level three detainees when a
facility is at or above full capacity. However, the standard prohibits low-level
two detainees from being housed with level three detainees.

Our review of 159 detainee records at PCJ showed that on October 20, 2005,
13 detainees classified as a level one detainee were housed with level three
detainees. Similarly, one detainee classified as a level two detainee was also
housed with level three detainees. Further, three detainees classified as level
three detainees were housed with level one detainees, and six were housed
with level two detainees.

We reviewed the classification levels for ICE detainees at BCP as of
January 20, 2005, and determined that 8 of 59 detainees were classified as
level three, with the remaining detainees classified as level two. BCP housed
7 of the 8 level three detainees with level two detainees. Similarly, on
March 21, 2005, 7 of 41 detainees were classified as level three; 4 of the 7
detainees were housed with level two detainees. In each instance, BCP
officials housed the level three and level two detainees together without
determining whether the level two detainees were classified as high or low-
level two.

Correspondence and Other Mail

Handling of Special Mail. The ICE Detention Standard for Correspondence
and Other Mail requires all facilities to implement procedures for inspecting
special correspondence for contraband. The inspections are to be conducted
in the presence of the detainee. At BCP, 9 of 25 detainees interviewed
complained that their “special mails,” such as correspondence with counsel,
were not opened in their presence. According to the BCP mailroom clerk,
some special mails might have been opened because they were not clearly
marked as containing legal materials.

Writing Implements, Paper, and Envelopes. The ICE Detention Standard
for Correspondence and other Mail requires the facility to provide writing
paper, writing implements, and envelopes at no cost to detainees. Detainees at
CCA were not provided free writing materials; these items were sold in the
commissary. CCA officials stated that only indigent detainees were provided
these items at no cost and CCA’s handbook indicated the same.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 18
Unclaimed Mail. Krome established a practice to return mail if the detainee
had not claimed it within two days. This practice was not documented in
Krome’s policy manual or the detainee handbook. The OIC told us that this
2-day time limit was not in their policy manual but was a practice carried
forward from training that ICE personnel gave Krome’s mail contractor. The
OIC assured us that this would either be written into policy and the detainees
would be informed of this time limit, or it would be rescinded. After
completion of our review, ICE officials provided documentation stating that
mail will be "returned to sender" after five (5) business days when all
reasonable efforts have been made to notify the detainee of mail received.

Funds And Personal Property

Separation Of Duties. The ICE Detention Standard for Funds And Personal
Property requires two officers to be present both to remove funds from a
detainee’s possession and to inventory the property on the property-receipt
form, G-589. The ICE standard also requires the property and valuables
logbook to contain identification of the property removed from the detainee.
BCP did not have adequate controls over the intake of detainees’ personal
property. One individual controlled both the key to the safe box and the
placement/removal of the detainees’ personal property. Also, no logbook was
maintained to record property receipt numbers issued for the personal funds
removed from detainees. A BCP official stated two officers would be used
during admission when necessary. When only one detainee was being
processed through admission, BCP did not see the need for two officers.

Stolen Funds and Personal Property. Independent of our work at the five
detention facilities, our Office of Investigations recently completed an
investigation at the Monroe County Jail detention facility where they
determined that detainees’ funds and personal property had been stolen.
Specifically, the property control officer was convicted of theft of over
$308,736 in U.S. currency, as well as numerous personal property items such
as jewelry, watches, and credit cards.

Quarterly Inventories. The ICE Detention Standard, Funds and Personal
Property, requires each facility to have a written procedure for inventory and
audit of detainee funds, valuables, and personal property. In addition, it
stipulates that an inventory of detainee baggage and other non-valuables will
be conducted by the OIC’s designee at least once each quarter; and the
facility’s daily log will indicate the date, time, and name of the officer(s)
conducting the inventory. Discrepancies are to be reported immediately to the
OIC.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 19
HCCC officials did not perform inventories of detainee’s personal baggage
and did not maintain a quarterly inventory log as required by the ICE
standard. In addition, HCCC officials told us the quarterly inventory audits
were being conducted “whenever time” allowed them. HCCC officials agreed
that the inventory process needed to be addressed immediately. HCCC
officials later told us the last personal property inventory audit was completed
in May 2005; however, HCCC did not maintain an audit log or check-off list,
and could not provide documentation showing that the inventory audit had
actually been performed.

Detainee Grievance Procedures

The ICE Detention Standards for Detainee Grievance Procedures requires
each facility to devise a method for documenting detainee grievances. At a
minimum, the facility must maintain a Detainee Grievance Log containing a
copy of grievances, an assigned log number for each grievance, a receipt date,
and the date of the disposition. Also, it requires that a copy of the formal
grievance remain in the detainee’s detention file for at least three years. The
standard also requires grievances to be acted on within five working days
through informal or formal resolution. Further, the standards require that the
facility will convene a grievance committee to study the grievance in the event
the detainee does not accept the department head’s decision.

Grievance Documentation and Filing. PCJ staff did not maintain a detainee
grievance log. In addition, ICE detention staff at the DRO Field Office did
not maintain a logbook of formal grievances prior to June 2005. We
determined that formal detainee grievances at PCJ from June 2005 to January
2006 were not filed in detainee detention files. Instead, they were filed with
formal grievances against PCJ officials and ICE officials, along with detainee
request forms and detainee personal property forms, located in the
Ombudsman’s office.

Timeliness of Grievance Actions. At BCP, we reviewed nine grievances filed
from January 1, 2004, to December 31, 2004; none of the nine were acted on
within 5 days. The response time ranged from 7 to 22 days with an average
response time of 9 days. Similarly, we reviewed 17 grievances files at HCCC
from January 2004 through July 2005; 13 of the 17 did not receive responses
within the 5-day timeframe. An HCCC official stated they were not aware of
the 5-day requirement to respond to grievances. However, according to the
HCCC detainee handbook, “the facility Grievance Officer shall, within five (5)
days of receipt of the grievance, conduct an investigation of the grievance and
render a written response to the detainee.” At PCJ, we reviewed eight ICE
grievances filed between January 1, 2005, and December 31, 2005; none of the
eight were acted on within 5 days. In one instance, the grievance was faxed to


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 20
ICE on July 1, 2005, and ICE responded on July 25, 2005, 20 days beyond the
prescribed time.

Krome Grievance Process. According to Krome’s Standard Operating
Procedures KRO/ /02-07 titled Detainee Grievance Procedures, “The Section
Chief (SC)-Camp Operations will assign a Second-line Supervisory
Immigration Enforcement Agent (SIEA) to the duties of Grievance Officer.
The Grievance Officer will collect the grievances from the secured and
marked grievance boxes in the facility and ensure that the complaint is
directed to the proper department for resolution.” Contrary to this policy, the
actual process used at Krome was for grievances to be collected by a first-line
supervisor and reviewed to determine their nature. The first-line supervisor
then tries to resolve the grievance informally. If the grievances cannot be
resolved informally, they become formal, and the second-line supervisor
handles them. We reviewed 146 grievances filed at Krome for CY 2004, 141
were handled informally, and 5 were forwarded to the second line supervisor
for formal review. Only five were actually resolved by the grievance officer
as required by Krome’s grievance policy.

Grievance Committee. PCJ does not have a detainee grievance committee.
PCJ has one official responsible for answering and resolving all formal PCJ
grievances.

Access to Drop Boxes. PCJ had two padlocked drop boxes controlled by PCJ
staff for all detainee correspondence, such as Ombudsman request slips,
detainee grievances, detainee request forms, etc. One box was located in the
cage room and the other was located in front of the Ombudsman’s office.
Both were accessible only to PCJ staff. A detainee would have to request a
PCJ staff member to place formal correspondence in one of the boxes.
Without “drop boxes” accessible to ICE detainees, detainees can’t file
anonymously and retaliation could occur.

Issuance and Exchange of Clothing

The ICE Detention Standard on Issuance and Exchange of Clothing, Bedding,
and Towels requires each facility to have a policy and procedure for the
issuance and regular exchange of clothing, bedding, linens, and towels. The
standard requires all new detainees to be issued one uniform shirt and one pair
of uniform pants or one jumpsuit; one pair of socks; one pair of underwear;
and one pair of facility issued footwear. The standard also requires facilities
to provide detainees with clean socks and undergarments daily and with clean
outer garments at least twice weekly. IGSAs are required to meet the intent of
this standard.



   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 21
Issuing Required Clothing. PCJ officials stated that detainees are usually
provided two uniforms except during shortages, when they are provided with
only one uniform. PCJ officials stated that no socks or undergarments are
issued and detainees are allowed to keep their socks and undergarments
during intake or can purchase socks and undergarments from the PCJ
Commissary.

At HCCC, 23 of 40 detainees interviewed stated they had not received all
clothing required to be issued. We reviewed of a sample of HCCC property
records for 13 detainees; 7 did not receive all required items of clothing.
HCCC officials indicated that because of HCCC’s low inventory of shoes,
detainees were being allowed to keep and wear their own sneakers, but not
dress shoes or boots.

Dirty Clothing Exchange. HCCC officials informed us that clothes are only
taken in for washing once or twice per week. They added that they could not
recall the last time dirty clothes were exchanged for clean clothes, nor did they
know whether HCCC has a policy that meets ICE Detention Standards for the
exchange of clothes. Also, officials stated that socks and undergarments are
not exchanged on a daily basis.

At PCJ, we observed that when it is time for laundry to be done, detainees are
not given clean clothes in exchange for dirty clothes. Instead, the detainees
remain in their undergarments, or shorts, until their clean laundry is returned,
which can take from 2 to 6 hours. Interviews with detainees confirmed that
this was standard practice.

Outdoor Recreation

The ICE Detention Standard for Recreation requires all facilities to provide
ICE detainees with access to recreational programs and activities, under
conditions of security and supervision that protect their safety and welfare.
Furthermore, every effort shall be made to place a detainee in a facility that
provides outdoor recreation. If outdoor recreation is available at the facility,
each detainee shall have access for at least one hour daily, at a reasonable time
of day, five days a week, weather permitting.

At PCJ, 19 of 32 detainees interviewed complained they were not provided
with the required outdoor recreation time. We sampled 24 weeks of
recreation and movement logbooks at PCJ for CY 2005 for male detainees
housed in low, medium and high risk units. During this timeframe the
detainees should have received 120 days of outdoor recreation, 1 hour a day,
5 days per week. Detainees housed in all three risk units did not receive the
required outdoor recreation time. For example, male detainees housed in the


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 22
low risk unit received outdoor recreation 66 of 120 days, averaging only about
3 days per week. Similarly, for female detainees housed in general
population, we sampled 12 weeks in CY 2005. The data showed that female
detainees received outdoor recreation 38 of 60 required days, averaging about
3 days per week.

At BCP, 14 of 25 of detainees interviewed stated they were denied recreation
or did not receive outdoor recreation, as required by the ICE standard. We
could not confirm the complaints since BCP does not maintain recreation logs.

At CCA, 8 of 51 detainees complained that they did not receive the daily one
hour recreation. According to CCA’s procedures, if one or more detainees
violated a requirement, they would not be allowed the one-hour recreation as a
disciplinary measure. The ICE standard specifically prohibits detainees from
not being allowed to participate in recreation unless it impacts facility
security.

At HCCC, 27 of 40 detainees interviewed stated that they did not receive the
daily one-hour recreation. According to HCCC’s Central Control logbook for
periods December 12, 2004, through February 11, 2005, and April 8, 2005,
through June 2, 2005, on ten occasions the logbooks lacked documentation
showing that the one-hour minimum daily recreation requirement had been
met.

Telephone Access

The ICE Detention Standard for Telephone Access requires the facility to
provide detainees with reasonable and equitable access to telephones during
established facility waking hours. Key elements of the standards include:

•   The facility shall maintain detainee telephones in proper working order.
    Appropriate facility staff shall inspect the telephones regularly (daily in
    SPCs/CDFs), promptly report out-of-order telephones to the repair service,
    and ensure that required repairs are completed quickly.

•   Generally, telephone access will be granted within 8 waking hours of the
    detainee’s request, but will always be granted access within 24 hours of
    the request. Incidents of delays extending beyond 8 waking hours must be
    documented and reported to ICE.

•   The facility shall provide a reasonable number of telephones on which
    detainees can make calls regarding legal matters without being overheard
    by officers, other staff or other detainees. Privacy may be provided in a
    number of ways, including:


    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 23
   1. Privacy panels (side partitions) that extend at least 18 inches to prevent
      conversations from being overheard;
   2. Placement of telephones where conversations may not be readily
      overheard by other detainees or facility staff; or
   3. The use an office telephone to make confidential calls regarding their
      legal proceedings.

ICE’s contract with the telephone service provider allows facilities to make
available calling cards, collect calls, and free pre-programmed calls for
detainee use. ICE will supply the telephone numbers that the contractor shall
pre-program. ICE currently allows numbers related to detainee free legal
services, phone calls to consular offices, and access to courts at no cost to the
detainee.

Telephones In Visitation Rooms. On October 21, 2005, 4 of 11 telephones
located in the male visitation room at PCJ were not operational. On
November 18, 2005, 1 of 11 telephones did not work. Similarly, on April 19,
2005, 13 of 60 telephones located in the detainee visitor areas at CCA San
Diego were not in working order.

Privacy For Legal Matter Telephone Calls. At BCP, detainees used
telephones located in a day room, where other detainees or staff can overhear
conversations involving legal matters. At HCCC, the telephones used by
detainees did not have privacy panels. At CCA, the telephones in the housing
units were located under the wall-mounted television sets and did not include
privacy panels. Also, CCA officials made available the telephone in the unit
manager’s office for making calls regarding legal matters. However, CCA
officials stated that the detainee is never left alone in the room, as a CCA
official is always present.

At PCJ, the Ombudsman’s office was designated for calls relating to legal
matters. We observed that the calls were not private because a PCJ official is
always in the office during the calls.

Compliance with Requests for Telephone Access. We sampled request
slips at PCJ for July, August, and September 2005. In six instances, detainees
had to file a formal grievance to request an emergency telephone call to notify
family of their detained status at PCJ. In one instance, the Ombudsman’s
office took at least 16 business days to grant a detainee’s request to call an
attorney as opposed to the 24 hour time frame required by the standard.

Consulate and Legal Telephone Numbers. The telephone service contract
between ICE and the service provider for the detainee phone system requires
ICE to supply the telephone numbers that the contractor shall pre-program.


   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 24
                             According to the standards, the facility shall permit the detainee to make
                             direct calls to legal service providers, in pursuit of legal representation or to
                             engage in consultation concerning his/her expedited removal case. In
                             November 2005, we tested 63 of 188 consulate numbers at PCJ, and were
                             unable to reach a representative on 50 of the 63 numbers. For 10 of the tests,
                             we were connected to an answering machine. It is necessary for the detainee
                             to talk to a representative because it is not possible for the detainee to receive
                             a return call. The phone system in the housing unit is not designed to receive
                             incoming calls. In addition, we tested 12 pro bono legal representation
                             telephone numbers, and were unable to make a connection for any of the 12
                             numbers. The posted number either required a detainee to pay a fee (use a
                             calling card), the number did not accept the call, or the call would not go
                             through. ICE DRO was not aware of the problems the detainees had in
                             contacting consulate or legal representatives.

                             Telephone Maintenance Documentation. HCCC did not keep telephone
                             maintenance records. PCJ staff responsible for telephone maintenance and
                             repairs told us that they did not record telephone maintenance and repairs
                             prior to June 2005. Consequently, were unable to determine whether the
                             facilities monitored and repaired telephones as required by the ICE standard.

                             Visitation

                             Length of Visits. The ICE Detention Standard for Visitation requires
                             facilities to allow detainees a minimum of 30 minutes visitation time under
                             normal conditions. Detainees at PCJ were not allowed a minimum of 30
                             minutes during family visitations. The PCJ Inmate Handbook allowed for at
                             least two non-contact visits 3 for a minimum of 15 minutes each per week
                             depending on time and space availability. At PCJ 25 of 32 detainees
                             interviewed said they did not have enough time to visit with family and
                             friends. Also, we received complaints regarding the length of visiting time at
                             BCP (7 of 25 detainees) and HCCC 23 of 40 detainees); however, we could
                             not substantiate these complaints.

                             Recommendations

                             We recommend that the Assistant Secretary for ICE:

                             6. Ensure detention facilities properly segregate high-risk, category three
                                detainees from low-risk category one and two detainees.



3
    A non-contact visit occurs when a detainee and visitor are allowed to speak to each other on the facility’s visitation
    phones, while separated by a glass partition, but are not permitted to touch one another.


                                 Treatment of Immigration Detainees Housed at ICE Facilities

                                                           Page 25
Management Comments: ICE concurs. ICE will reissue its existing NDS on
Classification to all Field Office Directors (FODs) and authorized detention
compliance reviewers. ICE will reiterate the importance of compliance with
the standard and require that all FODs review the current classification and
housing assignment practices at detention facilities within their respective
Field Offices. FODs will be required to take appropriate corrective action as
necessary to ensure compliance, including certification that all responsible for
classification have received the policy. These measures will take 180 days to
complete.

OIG Analysis: This recommendation is resolved but will remain open until
implementation is completed.

7. Ensure adequate separation of duties and other internal control procedures
   are implemented at detention facilities for detainee funds and personal
   property to reduce the risk of property being inadequately accounted for
   and to safeguard against theft.

Management Comments: ICE concurs. ICE will modify the current review
worksheet for Funds and Personal Property utilized in its annual review
process to include a specific line item for IGSA facilities that do not have
automated detainee funds systems addressing the requirement that two
officers must be present during the processing of a detainee’s funds and
valuables. Once completed and approved, any changes will be incorporated
into our annual detention review program and appropriate policy issued.
These measures will take 90 days for ICE to implement.

OIG Analysis: This recommendation is resolved but will remain open until
implementation is completed.

8. Ensure that periodic oversight and inspection procedures are in place to
   address compliance with the Detention Standards in the following areas
   during its annual inspection process.

   •   Staff-detainee communication
   •   Documentation of detention files
   •   Disciplinary policy
   •   Special Management Units (Disciplinary and Administrative)
   •   Access to legal materials
   •   Correspondence and other mail
   •   Detainee grievance procedures
   •   Issuance and exchange of clothing
   •   Outdoor recreation
   •   Telephone access and privacy
   •   Visitation

   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 26
Management Comments: ICE concurs in part. ICE concurs with the need
for inspection in the areas listed but does not concur with this
recommendation since the NDS and ICE annual review process already
addresses each of the items in the recommendation. ICE is confident that,
through its annual inspections program, the appropriate level of oversight
regarding compliance with the NDS exists. In addition, ICE’s practice of
conducting annual reviews and weekly site visits to its detention facilities
exceeds the industry standards set by the ACA, National Commission for
Correctional Health Care, and Joint Commission on Accreditation of
Healthcare Organizations. These organizations, nationally recognized as
leaders in the detention industry, conduct inspections at three-year intervals.
ICE requests that this recommendation be considered resolved and closed.

OIG Analysis: Given the issues noted during our review as discussed in this
report for each area, ICE should assess whether the methods used in their
annual inspection process are adequate to surface these types of issues and
ensure that corrections are implemented. Therefore, we consider this
recommendation unresolved until such measures are taken.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 27
ICE Procedures For Reporting Detainee Abuse
            We reviewed complaints from detainees received by our Office of
            Investigations alleging that correctional staff physically, sexually, or verbally
            abused them while in custody at all five detention facilities. The ICE
            Detention Standards do not address detainee reporting of abuse or civil rights
            violations. However, ICE posts posters in the facilities informing detainees to
            report instances of abuse to the OIG Hotline. Also, detention facilities used
            handbooks developed for inmates instead of handbooks explicitly developed
            for detainees, as required. In some instances, facilities did not provide
            detainee handbooks, or they did not provide the handbooks and orientation
            materials in Spanish or other languages.

            Detainees Alleged Physical, Sexual, and Verbal Abuse by Corrections
            Officers

            Immigration detainees have alleged that correctional staff physically, sexually,
            and verbally abused them while in custody at all five detention facilities.
            Although we were made aware of numerous instances where alleged physical
            abuse occurred, the following four represent some of the most egregious
            allegations received.

            •   Rape allegation at CCA San Diego

                A female detainee at CCA San Diego alleged that during a work detail, a
                contract guard sexually assaulted her. Office of Investigations issued a
                final report of investigation regarding this case. As a result, the subject
                contract guard was fired, thus requiring no response from ICE. Both the
                local U.S. Attorney’s Office and the Civil Rights Division declined to
                prosecute.

            •   Accusation of Abusive Search at CCA San Diego

                On December 27, 2004, an ICE Detention Officer filed a complaint on
                behalf of a detainee, alleging a female CCA Senior Correctional Officer
                (SCO) conducted a physically abusive "pat down" search that was
                followed up by a strip search conducted within view of other detainees.
                Both the SCO in question and another Correctional Officer (CO) provided
                written statements denying this allegation. Our Office of Investigations
                referred this case to ICE Office of Professional Responsibility (OPR) for
                their action.




                Treatment of Immigration Detainees Housed at ICE Facilities

                                         Page 28
•   Complaint from Wheelchair-Bound detainee at CCA San Diego

    On May 5, 2005, our Office of Investigations investigated a complaint
    from a handicapped detainee at the San Diego CCA, who alleged that a
    CO dislodged him from his wheelchair when he tried to enter another area.
    The detainee was examined by medical staff and did not sustain any
    injuries. The CO was put on administrative leave at that time. Our Office
    of Investigations referred this case to ICE OPR for their action.

•   Suicide Death at PCJ

    On February 16, 2005, a PCJ officer found a detainee, who had been in
    ICE custody at PCJ for approximately 1 month, hanging in his cell from a
    noose made from a bed sheet. Our Office of Investigations is reviewing
    the case to determine whether there was any impropriety by PCJ officials.
    The case remains open.

In addition to these cases, we identified the following two instances that
indicate improper behavior by correctional officials.

•   Use of camera phone at HCCC

    During interviews with HCCC detainees in July 2005, two detainees
    alleged that a correctional officer used a cell phone to take pictures of the
    detainees as they came out of the bathroom and shower, and as they slept
    in their cells. One detainee believed the correctional officer was taking
    pictures, because the correctional officer would hold his cell phone up,
    point it at them, and start laughing.

    We interviewed selected correctional officers including the one alleged to
    have taken the pictures. The correctional officer stated that he has never
    used a cell phone in the tier and that cell phones are not allowed in the
    building. Another correctional officer stated that while he personally has
    never used a cell phone in the tier, he has seen other correctional officers
    use personal cell phones while on the tiers, although it is against policy.

    HCCC staff members may wear or carry phones and beepers while on
    duty only if they are issued by the department, or authorized by the
    Director or his/her designee. Our Office of Investigations referred this
    allegation to ICE OPR for appropriate action.




    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 29
•   Appearance of Retaliation at Hudson County Correctional Center

    On July 14, 2005, HCCC staff transported a selected detainee to the ICE
    field office building for an interview with our audit team. At that time, the
    detainee refused to be interviewed for fear of retaliation from the HCCC
    staff, and was transported back to HCCC. Although confidential, the
    meeting with OIG staff was known to HCCC officials. Soon after, the
    detainee and another detainee were found allegedly fighting with each
    other. Both detainees were immediately placed in disciplinary
    segregation; however, the detainees were not given their disciplinary
    hearing for 5 days, which exceeded the standard of holding hearings
    within 72 hours.

    We observed the detainees in disciplinary segregation during this period;
    the detainees were in separate cells, housed with a non-ICE detainee. We
    inquired about this housing situation, and the correctional officer on duty
    told us that the detainees were housed with non-ICE detainees because
    there was not enough space to house the two detainees in separate cells.
    However, there were at least two empty cells that could have housed the
    two ICE detainees separately. An HCCC official indicated that the ICE
    detainees had similar classification levels as the non-ICE detainees and
    therefore the two (one ICE detainee and one non-ICE detainee) could be
    housed in the same cell.

    We attended the disciplinary hearings for both ICE detainees, 5 days after
    serving time in disciplinary segregation. During the hearings both
    detainees were found not guilty.

ICE Detention Standard Does Not Address Detainee Reporting of Abuse
or Civil Rights Violations

The ICE Detention Standard on Detainee Grievance Procedures does not
explicitly address detainee rights for the reporting of abuse and civil rights
violations. All five detention facilities reviewed distributed handbooks that
did not properly explain the process for reporting allegations of abuse and
civil rights violations.

The Standard requires ICE staff to comply with the requirement to report
allegations of officer misconduct to a supervisor or higher-level official in
his/her chain of command, and/or to INS Office of Internal Audit and/or the
DOJ Office of Inspector General. CDFs and IGSA facilities must forward
detainee grievances alleging officer misconduct to ICE. ICE will investigate
every allegation of officer misconduct. This reporting requirement applies
without exception to all detainee allegations of officer misconduct, whether


    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 30
formally or informally submitted. The ICE Standard has not been updated to
reflect the creation of the Department of Homeland Security and the DHS
Office of Inspector General.

ICE detainees are in administrative custody versus punitive correctional
custody and are afforded rights and privileges specifically germane to their
custody status. For example, detainees are allowed a hearing before an
immigration judge and can request voluntary departure. Also, pro bono legal
services are made available to them.

Five BCP officials informed us that they were not aware that there are specific
ICE standards for detainees; therefore, correctional officers were trained to
treat inmates and detainees the same. Also, four senior San Diego CCA
Facility correctional officers informed us that officers had no knowledge of
ICE’s policies and procedures pertaining to ICE detainees.

Detainee Handbooks

ICE Detention Standard for the Detainee Handbook requires each facility to
develop a detainee handbook that will specify the rules, regulations, policies,
and procedures with which every detainee must comply. In addition, the
handbook will list detainee rights and responsibilities. The handbook will list
and classify prohibited actions and behaviors, along with disciplinary
procedures and sanctions. Grievance and appeals procedures must also be
included in the handbook. The ICE Detention Standard on Admission and
Release requires every detainee to receive a copy of the handbook upon
admission.

Issuing Detainee Handbooks. Two facilities, HCCC and PCJ, did not issue
handbooks specifically addressing detainee’ rights, responsibilities, and rules.
We were unable to confirm if BCP or CCA San Diego issued handbooks to all
detainees.

The HCCC handbook was not issued until June 2005. Consequently, based on
their admission dates into HCCC, 37 of 40 detainees interviewed did not
receive the HCCC handbook. After HCCC published its handbook, 15 of 40
detainees interviewed from June 2005 through October 2005 stated that they
were not provided the handbook at admission.

At PCJ, 16 of 32 detainees interviewed said they had not received a detainee
handbook in compliance with ICE required standards. We observed that
during the PCJ admissions process, detainees were issued a Passaic County
Jail: Inmate Handbook, effective January 2005, which outlines the rules and



   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 31
regulations that each inmate (not detainee) should follow while remaining in
the facility.

Handbooks Should Include Detainee Reporting Process. All five detention
facilities distributed handbooks to detainees that did not explain the process
for reporting allegations related to abuse or civil rights violations to the DHS
OIG. Even with the hotline posters that we use to inform detainees to report
instances of abuse to us, some detainees were not aware that they could report
allegations related to abuse or civil rights violations to our office. Three
facilities (BCP, CCA San Diego, and PCJ) did not address how to report
officer misconduct to the OIG. HCCC and Krome briefly addressed how to
report officer misconduct.

Translating Handbooks and Orientation Materials Into Spanish and
Other Languages

ICE Detention Standard on Admission and Release requires each facility to
have a medium, such as a video, to provide detainees an orientation to the
facility. The Standard requires the orientation video to be in English and
Spanish, or the most prevalent language(s) spoken by detainees at the facility.
In addition, the ICE Detention Standard for the Detainee Handbook requires
the facility to have English and Spanish versions of the handbook available for
issuance to the detainees at admission.

At BCP, during admission and release procedures, an orientation package was
provided in English to English-speaking detainees in order to supplement the
oral presentation. However, no orientation package was available in Spanish
for the Spanish-speaking detainees. Instead, one of the bilingual officers on
duty would verbally translate the oral presentation for the Spanish speakers in
the back of the room.

No Spanish version of a detainee handbook had been published at HCCC
since April 3, 2003, although HCCC officials stated they planned to publish a
Spanish version.

Recommendations

We recommend that the Assistant Secretary for ICE:

9. Revise the ICE Detention Standard to:

   •   explicitly address how detainees should report allegations of abuse and
       civil rights violations, along with violations of officer misconduct,



   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 32
        directly to ICE management or the DHS Office of Inspector General,
        and
    •   require detention facilities to provide appropriate written guidance to
        correctional officers to ensure that treatment of immigration detainees
        is specifically germane to their custody status.

Management Comments: ICE concurs in part. As noted in the report, ICE
fully complies with the requirement to post the OIG notification in each
housing unit. ICE will ensure that the OIG phone number is programmed into
the ICE detainee phone system. In addition, ICE will revise its current
worksheet regarding “Access to Telephones” to include a line item ensuring
the OIG Hotline phone number is working. ICE will modify the NDS for
Detainee Grievances and the Detainee Handbook to include specific
instructions regarding how to report allegations of staff misconduct, abuse,
and civil rights violations. The ICE Detainee Handbook standard will be
modified to require that each handbook provide instructions to detainees on
how to report allegations of officer misconduct, abuse, or civil rights
violations. The telephone system programming will be completed within 30
days. The other measures discussed will take 180 days to complete.

OIG Analysis: This recommendation is unresolved until implementation is
completed and ICE addresses the second part of the recommendation to
require detention facilities to provide appropriate written guidance to
correctional officers to ensure that treatment of immigration detainees is
specifically germane to their custody status.

10. Validate that each detention facility issues a handbook for immigration
   detainees that:

    •   specifically identifies detainees’ rights, responsibilities, and rules,
    •   includes a section on detainee’s rights regarding the reporting of
        allegations of abuse and civil rights violations, and
    •   includes a provision that detainees may report allegations of abuse and
        civil rights violations directly to the DHS Office of Inspector General.

Management Comments: ICE concurs in part. The ICE Detainee Handbook
and Admissions and Release standards already require that:

•   detainees receive a comprehensive orientation to each facility;
•   each detainee receives a copy of the detainee handbook upon admission;
•   detainee handbooks are translated into Spanish or the most prevalent
    language spoken by detainees at their facility; and,
•   the detainee handbook identifies detainees’ rights, responsibilities, and
    rules.


    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 33
Within the next 90 days, ICE will reemphasize to all NDS compliance
reviewers that they must verify these requirements are being met during
annual reviews.

OIG Analysis: ICE’s proposed actions address the intent of the
recommendation. This recommendation is resolved but will remain open until
the appropriate measures have been implemented.

11. Verify that all corrections facilities:

    •   have procedures in place to verify that each detainee receives a copy of
        the detainee handbook upon admission,
    •   translate detainee handbooks into Spanish or the most prevalent
        languages spoken by detainees at their facility, and
    •   have an orientation video in English and Spanish, or the most
        prevalent language(s) spoken by detainees at the facility.

Management Comments: ICE concurs in part. ICE currently requires all
SPCs and CDFs to provide an orientation video in English and Spanish. The
NDS also specifically requires that:

•   detainees receive a comprehensive orientation to each facility;
•   each detainee receives a copy of the detainee handbook upon admission;
•   detainee handbooks are translated into Spanish or the most prevalent
    language spoken by detainees at their facility; and,
•   the detainee handbook identifies detainees’ rights, responsibilities, and
    rules.

However, the OIG recommendation to require every facility to provide a
video orientation is not consistent with the NDS or other industry standards.
Accordingly, for IGSA facilities, ICE will provide written orientation
materials. To that end, ICE intends to develop an ICE detainee handbook that
will provide access to information that is oriented towards ICE detainees
regardless of their custodial location. At a minimum, it will contain the
information recommended by OIG. ICE staff conducting site visits under the
Staff Detainee Communication standard will be required to ensure these
handbooks are being provided to each detainee. Within the next 90 days, ICE
will reemphasize to all detention standards compliance reviewers that they
must verify these requirements are being met during annual reviews. The
handbook will be completed within the next 180 days.




    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 34
OIG Analysis: ICE’s proposed actions address the intent of the
recommendation. This recommendation is resolved but will remain open until
the appropriate measures have been implemented.




   Treatment of Immigration Detainees Housed at ICE Facilities

                            Page 35
Thoroughness of ICE Detention Facility Inspections
               Each SPC, CDF, and IGSA facility is reviewed annually for compliance with
               the ICE Detention Standards using procedures and guidance as outlined in the
               DMCP. At SPCs and CDFs, the ICE DRO headquarters staff conducts the
               review; at IGSA facilities, DRO field office staff conducts the review.

               We reviewed the latest available Annual Detention Review reports prepared
               by ICE DRO for the five detention facilities included in our audit sample:
               (1) BCP 2004 Annual Detention Review, (2) CCA Facility in San Diego 2004
               Annual Detention Review, (3) HCCC 2005 Annual Detention Review,
               (4) Krome SPC 2005 Annual Detention Review, and (5) PCJ 2005 Annual
               Detention Review.

               A final rating of Acceptable was given to all five detention facilities, meaning
               the detention facilities were determined to be adequate and operating within
               standards, with some deficiencies. However, our review of the five facilities
               identified instances of non-compliance regarding health care and general
               conditions of confinement that were not identified during the ICE annual
               inspection of the detention facilities. Other areas identified, although not
               specifically addressed by the standard, included environmental health and
               safety and reporting of abuse by detainees.

               This observation was beyond the planned scope of our work. However, we
               believe it needed to be brought to the attention of ICE management. ICE
               management believes the differences result from the in-depth nature of our
               review in contrast to the three to four day inspection process used by ICE.

               Recommendations

               We recommend that the Assistant Secretary for ICE:

               12. Take appropriate actions to improve the inspections process and ensure
                   that all non-compliance deficiencies are identified and corrected.

               Management Comments: ICE concurs. ICE recognizes the need for
               independent review of its detention inspection process and is constantly
               looking at ways to improve its processes. The following steps have been
               authorized and are in progress:

               •   DRO has provided three full-time, funded positions to the ICE Office of
                   Professional Responsibility (OPR);



                   Treatment of Immigration Detainees Housed at ICE Facilities

                                            Page 36
•   OPR will provide oversight, management, and an independent review of
    all detention compliance reviews conducted by DRO; and
•   OPR will alert DRO to any deficient or at risk facilities as they relate to
    NDS compliance.

ICE will report as to the status of these actions to the OIG as they are
implemented.

OIG Analysis: This recommendation is resolved but will remain open until
implementation is completed.




    Treatment of Immigration Detainees Housed at ICE Facilities

                             Page 37
Appendix A
Purpose, Scope, and Methodology


                   The purpose of our audit was to identify and investigate deficiencies from ICE
                   detention standards related to facilities used by ICE to house immigration
                   detainees. We evaluated Immigration and Customs Enforcement’s (ICE’s)
                   implementation of its detention standards and detention facilities’ compliance
                   with the standards; and examined reports and allegations related to detainees’
                   abuse. Our audit focused on ICE’s implementation and oversight of 22 of 38
                   detention standards.

                   We met with ICE and DRO officials responsible for establishing the detention
                   standards, monitoring compliance with detention standards, reviewing and
                   resolving allegations and complaints reported by detainees, and maintaining
                   program information and statistics. We also met with U.S. Customs and
                   Border Protection officials responsible for establishing policies and
                   procedures, monitoring compliance with established policies and procedures,
                   reviewing and resolving allegations and complaints reported by detainees, and
                   maintaining program information and statistics. Our review coverage
                   included program information and statistics from January 2004 through
                   January 2006. Other periods were included as deemed necessary to address
                   the audit objectives.

                   We also met with Non-Governmental Organization (NGO) officials and
                   representatives from advocacy groups to obtain their concerns and views
                   regarding the treatment of detainees held on immigration charges at the
                   facilities selected for review.

                   We conducted fieldwork at the following five detention facilities, which
                   consist of one SPC, one CDF, and three IGSA facilities.

                   Detention Facilities

                      1. Berks County Prison, Leesport, Pennsylvania – an IGSA facility
                      2. CCA Facility, San Diego, California – a CDF
                      3. Hudson County Correction Center, Kearny, New Jersey – an IGSA
                         facility
                      4. Krome SPC, Miami, Florida
                      5. Passaic County Jail, Paterson, New Jersey – an IGSA facility

                   After the completion of our review, ICE removed all immigration detainees
                   that had been housed at PCJ and transferred them to other facilities.

                   We did not use statistical sampling methodologies based on random selection
                   for the facility or sample selections. Accordingly, the results of our testing
                   represent the characteristics of our judgmental sample and were not projected


                      Treatment of Immigration Detainees Housed at ICE Facilities

                                               Page 38
Appendix A
Purpose, Scope, and Methodology


                           to the population from which it was selected to determine an overall
                           compliance rate.

                           We distributed flyers in English and Spanish to ICE, NGO, and civil rights
                           groups to indicate the sites that we would visit. We provided the same
                           information to ICE detainees at each facility that we visited. This afforded
                           detainees the opportunity to contact us regarding allegations of mistreatment
                           (see Appendix B).

                           During our audit, we received responses to the flyer and we interviewed a
                           sample of detainees at each facility. The detainees were selected based on the
                           issues and concerns that they included in their response, length of time at the
                           facility, and other variables. The other variables included our review of
                           grievances, incident reports, post logbooks, after action reports, and other
                           documents obtained directly from the detention facility, as well as some
                           detainees identified by representatives from various civil rights groups. We
                           made an attempt to select those detainees who included allegations related to
                           abuse, unique medical concerns, special needs, and extraordinary issues
                           regarding conditions of confinement. The table below shows the number of
                           detainee responses that we received and the number of detainees interviewed
                           at each location.

                                                                                 Number of    Number of
                                                                                  Detainee    Detainees
                                      Detention Facility                         Responses   Interviewed
                              Berks County Prison                                   22 a          25
                              CCA Facility in San Diego                            210 b          51
                              Hudson County Correctional Center                     47 c          40
                              Krome SPC                                             99 d          20
                              Passaic County Jail                                   94 e          32

                           We also interviewed some detainees released from Passaic County Jail to
                           obtain indications regarding whether detainees previously held were
                           mistreated, i.e., physical, sexual, or verbal abuse, and to identify any
                           additional concerns regarding their condition of confinement. We reviewed
                           available documentation including videotapes, incident reports, medical
                           reports, property logbooks, laundry logbooks, and other records in an attempt
                           to corroborate allegations made by detainees.

a
  20 in English and 2 in Spanish.
b
  136 in English, 69 in Spanish, 4 in Chinese, and 1 in Korean.
c
  40 in English, 6 in Spanish, and 1 in Portuguese.
d
  68 in English and 31 in Spanish.
e
  62 in English, 31 in Spanish, and 1 in Chinese.


                               Treatment of Immigration Detainees Housed at ICE Facilities

                                                         Page 39
Appendix A
Purpose, Scope, and Methodology



                   Using the structured questionnaire prepared by ICE DRO for its DMCP, we
                   interviewed pertinent facility staff to gain an understanding of the facility
                   operations, policies and procedures, practices, and to assess compliance with
                   the following ICE Detention Standards as they pertain to the treatment of
                   detainees being held on immigration charges:

                          Staff-Detainee Communication;
                          Detention Files;
                          Disciplinary Policy;
                          Hold Rooms In Detention Facilities (if any);
                          Special Management Units (Disciplinary and Administrative);
                          Use Of Force;
                          Access To Legal Materials;
                          Admission And Release;
                          Classification System;
                          Correspondence And Other Mail;
                          Food Service;
                          Funds And Personal Property;
                          Detainee Grievance Procedures;
                          Group Presentation on Legal Rights;
                          Issuance And Exchange of Clothing, Bedding, And Towels;
                          Recreation;
                          Religious Practices;
                          Detainee Access To Telephone;
                          Visitation;
                          Hunger Strike;
                          Medical Care; and
                          Suicide Prevention And Intervention.

                   We toured each facility in an attempt to observe:

                          Announced and unannounced visits made by officers from the
                          appropriate ICE Field Office;
                          In-processing and out-processing of detainees;
                          Staff handling and documenting receipt of detainees’ funds and
                          property (for both in-processing and out-processing) and the property
                          room;
                          Use of force;
                          Mail processing;
                          Law Library;
                          Housing units for male and female detainees to include: (1) general
                          housing units/pods, (2) temporary housing unit/pods, (3) safety cells,


                      Treatment of Immigration Detainees Housed at ICE Facilities

                                               Page 40
Appendix A
Purpose, Scope, and Methodology


                           (4) medical area, (5) segregation units, (6) telephone areas, and
                           (7) hold rooms (if any);
                           Visitation rooms and waiting areas (for social and attorney visits);
                           Dining room activities (including storage and refrigeration areas);
                           Laundry distribution (including washer areas);
                           Detainee population at recreation time (both outdoor and indoor
                           facilities);
                           Detainees in segregation at recreation time (both outdoor and indoor
                           facilities); and
                           Religious services.

                   To conduct the review of health care, we selected case files based on the
                   following methodologies:

                   •   At BCP, we judgmentally selected 42 ICE detainees to review the initial
                       medical screening for new arrivals and physical examination from various
                       sources, including billing listings, detainees housed in disciplinary or
                       mental health units, and housing logs. We reviewed 447 sick call requests
                       submitted by 30 detainees. We interviewed 25 of the 30 detainees and the
                       remaining five detainees were selected based on the variables, as
                       explained on page 38. These sick call requests cover a period of July 2003
                       to May 2005. In addition, we reviewed the medical file of one detainee on
                       hunger strike, and seven detainees who had been placed under observation
                       for suicidal precautions.
                   •   At the CCA San Diego Facility, we judgmentally selected 12 ICE
                       detainees to review the initial medical screening for new arrivals from the
                       hunger strikers list, suicide list, and randomly from current detainees. We
                       subsequently reviewed an additional 19 detainees’ medical files for
                       physical examinations based on detainee interviews. We reviewed 19 sick
                       call requests submitted by 11 detainees. In addition, we reviewed the
                       medical file of three detainees on hunger strike, and five detainees who
                       had been placed under observation for suicide watch.
                   •   At HCCC, we judgmentally selected 32 ICE detainees to review the initial
                       medical screening for new arrivals and physical examination from various
                       sources including the billing listings, detainees housed in either
                       disciplinary or mental health units, and housing logs. However, the
                       medical care provider at HCCC was unable to provide us with one of the
                       requested medical files. In addition, we could not determine whether 11
                       of 31 detainees at HCCC received the initial medical screening
                       immediately upon arrival or a physical examination within 14 days of
                       arrival due to missing documents and incomplete forms. Therefore, we
                       were only able to review 20 detainees. We reviewed a limited number of
                       sick call requests submitted by 12 detainees. In addition, we reviewed the


                       Treatment of Immigration Detainees Housed at ICE Facilities

                                                Page 41
Appendix A
Purpose, Scope, and Methodology


                       medical file of one detainee on hunger strike, and seven detainees who had
                       been placed under observation for suicide watch.
                   •   At PCJ, we initially selected a total of 32 ICE detainees to review the
                       initial medical screening for new arrivals and physical examination from
                       the list of detainees we interviewed. However, PCJ was not able to locate
                       the medical files for two detainees. Therefore, we were only able to
                       review 30 detainees. We also reviewed 15 sick call requests submitted by
                       six detainees. In addition, we reviewed the medical file of two detainees
                       on hunger strike, and three detainees who had been placed under
                       observation for suicide watch.
                   •   At Krome, we selected 39 ICE detainees to review the initial medical
                       screening for new arrivals and physical examination from medical files
                       maintained. We subsequently reviewed an additional 12 detainees’
                       medical files. We reviewed the medical file of one detainee on hunger
                       strike, and 14 detainees who had been placed under observation for suicide
                       watch. In addition, we received 27 medical concerns expressed by
                       detainees.

                   We conducted our audit from June 2004 through January 2006 under the
                   authority of the Inspector General Act of 1978, as amended, and in accordance
                   with generally accepted government auditing standards.




                       Treatment of Immigration Detainees Housed at ICE Facilities

                                                Page 42
Appendix B
OIG Flyer




                                            The DHS OIG is conducting a review of the treatment
                                            of aliens held on immigration charges at U.S.
                                            Immigration and Customs Enforcement (ICE)
                                            detention facilities.

                   We are assessing the treatment of detainees and conditions of confinement at
                   the following facilities:

                        (1)   Berks County Prison, Leesport, Pennsylvania
                        (2)   Corrections Corporation of America Facility, San Diego, California
                        (3)   Hudson County Correction Center, Kearny, New Jersey
                        (4)   Krome Service Processing Center (SPC), Miami, Florida
                        (5)   Passaic County Jail, Paterson, New Jersey

                   If you feel that you have been physically or sexually abused or your conditions
                   of confinement have been abusive, you or your representative can:

                              Fax DHS OIG Hotline at: (202) 254-4295
                              E-mail us at DHSOIGHOTLINE@dhs.gov
                              Or write:
                              U.S. Department of Homeland Security/Stop 2600
                              Attn: Office of Inspector General Hotline
                              245 Murray Drive, S.W., Building 410
                              Washington, D.C. 20528

                   Your participation may contribute to improved living conditions at the detention
                   facility. All contacts will be kept confidential. Your identity will not be made
                   public without your consent, unless ordered by a court. Your participation will
                   not have a negative effect on your immigration case.




             Treatment of Immigration Detainees Housed at ICE Facilities

                                        Page 43
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 44
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 45
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 46
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 47
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 48
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 49
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 50
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 51
Appendix C
Management Response to Draft




                     Treatment of Immigration Detainees Housed at ICE Facilities

                                              Page 52
Appendix D
Major Contributors to this Report



                    Alexander Best, Director
                    Inez Jordan, Audit Manager
                    Ethel Taylor, Audit Manager
                    Brad Mosher, Audit Manager
                    Patricia Alcaniz, Senior Auditor
                    Irene Aultman, Senior Auditor
                    Don Emery, Senior Auditor
                    Melissa Jones, Program Analyst
                    Maryann Pereira, Auditor
                    Nadine Ramjohn, Senior Auditor
                    Ronda Richardson, Senior Auditor
                    Gary Stivers, Auditor
                    Eno Ukih, Senior Auditor
                    Wayne White, Auditor




                       Treatment of Immigration Detainees Housed at ICE Facilities

                                                Page 53
Appendix E
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary, Legislative and Intergovernmental Affairs
                      Assistant Secretary, U.S. Immigration and Customs Enforcement
                      Chief Privacy Officer
                      DHS GAO/OIG Liaison
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                         Treatment of Immigration Detainees Housed at ICE Facilities

                                                  Page 54
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
